No. 20-5166

IN THE

Supreme Court of the United States
J.J.H.,
Petitioner,
v.
WAUKESHA COUNTY, WISCONSIN
Respondent.
On Petition for a Writ of Certiorari
to the Court of Appeals of Wisconsin

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the
Reply Brief for Petitioner in the above-entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in
Century Schoolbook 12 point for the text and 10 point for footnotes,
and that the Reply Brief for Petitioner contains 2,423 words, excluding
the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on September 1st, 2020.
/s/ Colleen D. Ball
Colleen D. Ball
Counsel of Record
WISCONSIN STATE PUBLIC DEFENDER
735 North Water Street, Suite 912
Milwaukee, WI 53202
(414) 227-3110

ballc@opd.wi.gov

